                    Preparations Were Successful for
               Implementation of New Business Provisions
                    in the Jobs and Growth Tax Relief
                         Reconciliation Act of 2003

                                    March 2004

                       Reference Number: 2004-30-062




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                                DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     March 10, 2004



       MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                      ENFORCEMENT


       FROM:                           Gordon C. Milbourn III
                                       Acting Deputy Inspector General for Audit

       SUBJECT:                        Final Audit Report – Preparations Were Successful for
                                       Implementation of New Business Provisions in the Jobs and
                                       Growth Tax Relief Reconciliation Act of 2003
                                       (Audit # 200330038)


       This report presents the results of our review to evaluate the Internal Revenue Service’s
       (IRS) actions to implement the business provisions of the Jobs and Growth Tax Relief
       Reconciliation Act of 2003.1 This included evaluating the actions planned or taken to
       update and/or create necessary computer programs, processing procedures, tax forms,
       instructions, and publications related to the business provisions.
       This review focused on three new provisions. One provision increased first-year bonus
       depreciation, another provision increased the amount of cost for tangible depreciable
       property that can immediately be expensed (rather than depreciated over several
       years), and a third provision postponed 25 percent of corporate estimated tax payments
       due on September 15, 2003, until October 1, 2003. The Congressional Joint Committee
       on Taxation estimated that these three provisions would reduce business taxes by
       $32 billion over a 5-year period and shift revenue totaling over $6 billion from the Fiscal
       Year (FY) 2003 budget to the FY 2004 budget.
       In summary, the IRS successfully identified all major actions necessary to properly
       implement the legislative provisions affecting business taxpayers and successfully
       completed all of the required action items due at the time of our review. Some of the


       1
           Pub. L. No. 108-27, 117 Stat. 752.
                                          2

action items were pending completion but appeared to be on schedule and had
reasonable completion dates.
Management’s Response: IRS management reviewed the draft report and concurred
with its contents. Since there were no recommendations requiring a formal response,
the IRS agreed the report should be issued with no formal written response.
Please contact me at (202) 622-6510 if you have questions or Richard J. Dagliolo,
Acting Assistant Inspector General for Audit (Small Business and Corporate Programs),
at (631) 654-6028.
   Preparations Were Successful for Implementation of New Business Provisions in the
                 Jobs and Growth Tax Relief Reconciliation Act of 2003




                                              Table of Contents


Background ................................................................................................ Page 1
Appropriate Actions Were Taken to Ensure
Implementation of New Provisions Affecting Businesses ........................... Page 2
Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 5
Appendix II – Major Contributors to This Report......................................... Page 6
Appendix III – Report Distribution List ........................................................ Page 7
Appendix IV – Details of Business Provisions in the Jobs and Growth
Tax Relief Reconciliation Act of 2003 ........................................................ Page 8
   Preparations Were Successful for Implementation of New Business Provisions in the
                 Jobs and Growth Tax Relief Reconciliation Act of 2003

                                  The Jobs and Growth Tax Relief Reconciliation Act
Background
                                  of 2003 (JGTRRA)1 introduced a host of new rules,
                                  accelerated some benefits, and created tax provisions with
                                  various effective dates. The new law contained significant
                                  tax cuts for both individual and business taxpayers.
                                  For business taxpayers, the JGTRRA included two
                                  temporary tax breaks designed to encourage immediate
                                  capital investments. One provision in the Act increased
                                  first-year bonus depreciation, another provision increased
                                  the amount of cost for tangible depreciable property that can
                                  immediately be expensed (rather than depreciated over
                                  several years), and a third provision postponed 25 percent of
                                  corporate estimated tax payments due on
                                  September 15, 2003, until October 1, 2003. (For a more
                                  detailed description of each provision, please see
                                  Appendix IV.) The Congressional Joint Committee on
                                  Taxation estimated that these 3 provisions would reduce
                                  business taxes by $32 billion over a 5-year period and shift
                                  revenue totaling over $6 billion from the Fiscal Year (FY)
                                  2003 budget to the FY 2004 budget.
                                  The Internal Revenue Service (IRS) is responsible for
                                  ensuring that new legislative provisions are incorporated
                                  and reflected in their tax forms, computer programs, and
                                  internal processing manuals. In addition, the IRS is
                                  required to inform taxpayers of the new provisions through
                                  publications, instructions, and multi-media.
                                  Within the IRS, the Office of Tax Administration
                                  Coordination (OTAC) is responsible for monitoring and
                                  tracking the implementation of enacted legislation. The
                                  OTAC assigns ownership and target dates for each action
                                  item necessary to implement the provision, works with the
                                  provision owners to ensure appropriate implementation
                                  plans are developed, and monitors the progress of the plan.
                                  This process utilizes the Legislative Implementation
                                  Tracking System (LITS), an intranet-based system that
                                  reflects real-time status updates for provisions and actions
                                  and provides management information capabilities. The
                                  LITS is IRS management’s primary control to monitor the
                                  implementation of new tax laws.

                                  1
                                      Pub. L. No. 108-27, 117 Stat. 752.
                                                                                         Page 1
    Preparations Were Successful for Implementation of New Business Provisions in the
                  Jobs and Growth Tax Relief Reconciliation Act of 2003

                                   This review was performed at the Ogden, Utah, office of the
                                   Treasury Inspector General for Tax Administration through
                                   analysis and review of IRS data from October through
                                   December 2003. The audit was conducted in accordance
                                   with Government Auditing Standards. Detailed information
                                   on our audit objective, scope, and methodology is presented
                                   in Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   The IRS successfully identified all major actions necessary
Appropriate Actions Were Taken
                                   to properly implement legislative provisions of the
to Ensure Implementation of New
                                   JGTRRA affecting business taxpayers. The IRS was also
Provisions Affecting Businesses
                                   successful in completing all of the required action items that
                                   were due at the time of our review. At that time, some of
                                   the action items were still pending completion, but appeared
                                   to be on schedule and all had reasonable completion dates.
                                   The IRS took actions ensuring that appropriate tax forms
                                   were modified, business taxpayers and practitioners were
                                   effectively informed of the tax law changes, IRS employees
                                   were properly informed, and IRS computer programs
                                   affected by the new provisions were properly modified.
                                   Tax forms and associated instructions were modified to
                                   reflect new tax provisions
                                   To implement the depreciation and expense provisions of
                                   the JGTRRA, the IRS successfully modified four different
                                   forms and their related instructions. The forms and
                                   instructions affected and changed to reflect the new
                                   provisions included the following:
                                      •   Depreciation and Amortization (Form 4562).
                                      •   Employee Business Expenses (Form 2106).
                                      •   Sales of Business Property (Form 4797).
                                      •   Underpayment of Estimated Tax by Corporations
                                          (Form 2220).
                                   All changes made to the tax forms and related instructions
                                   accurately reflected the new provisions, were completed
                                   timely, and were presented clearly to facilitate taxpayer
                                   compliance.


                                                                                          Page 2
Preparations Were Successful for Implementation of New Business Provisions in the
              Jobs and Growth Tax Relief Reconciliation Act of 2003

                               Business taxpayers and practitioners were effectively
                               informed
                               The IRS took proper actions to ensure business taxpayers
                               and practitioners affected by the new provisions were
                               properly informed of the changes. At the time of our
                               review, the IRS had updated 5 of the 10 publications that
                               needed modification. The updated information included in
                               the five publications was accurate and clearly written. The
                               five publications updated included the following:
                                  •   Your Federal Income Tax (Publication 17).
                                  •   Farmer’s Tax Guide (Publication 225).
                                  •   Residential Rental Property (Publication 527).
                                  •   Sales and Other Dispositions of Assets
                                      (Publication 544).
                                  •   Direct Sellers (Publication 911).
                               The other five publications had pending changes at the close
                               of our review. All of these pending changes had reasonable
                               due dates. The publications included the following:
                                  •   Travel, Entertainment, Gift, and Car Expenses
                                      (Publication 463).
                                  •   Business Use of Your Home (Publication 587).
                                  •   How to Depreciate Property (Publication 946).
                                  •   Starting a Business and Keeping Records
                                      (Publication 583).
                                  •   Tax Highlights for Commercial Fisherman
                                      (Publication 595).
                               In addition, the IRS issued a number of news releases to
                               further ensure that the taxpayers affected by these new
                               provisions were aware and fully informed. The information
                               was also available in several locations on The Digital Daily,
                               the IRS’ official internet website.
                               IRS processing instructions were effectively updated
                               The IRS also identified and made changes to the instructions
                               for processing business tax returns that were affected by the
                               new provisions. Specifically, the Internal Revenue Manuals
                                                                                       Page 3
Preparations Were Successful for Implementation of New Business Provisions in the
              Jobs and Growth Tax Relief Reconciliation Act of 2003

                               were accurately updated to reflect the legislative changes.
                               In addition, Servicewide Electronic Research Program
                               Alerts were issued IRS-wide to provide general notification
                               of impending changes.
                               A change to IRS computer programming was
                               appropriately implemented
                               The provision of the Act that postponed 25 percent of
                               corporate estimated tax payments due on
                               September 15, 2003, was the only provision of the three
                               reviewed that required a change to IRS computer
                               programming.
                               A Request for Information Services (RIS)2 was developed
                               for the change and received and signed by the Information
                               Technology Services (ITS) function on June 12, 2003. The
                               RIS provided an accurate description of the necessary
                               changes.
                               An ITS programmer made the change to existing computer
                               programs that essentially created an additional payment due
                               date. Instead of 4 equal payments due on the standard due
                               dates, the third payment due was calculated at
                               75 percent of the average quarterly payment. A new due
                               date was made for October 1, 2003, requiring the remaining
                               25 percent of the normal quarterly tax payment.
                               The ITS followed a series of steps to ensure the proper
                               changes were made to the programming and then conducted
                               tests to ensure the changes worked properly. In addition,
                               the Product Assurance function performed systems
                               acceptability tests. All tests and programming changes were
                               completed on time.




                               2
                                 IRS’ formal method of requesting a computer programming change
                               from the Information Technology Services function.



                                                                                           Page 4
     Preparations Were Successful for Implementation of New Business Provisions in the
                   Jobs and Growth Tax Relief Reconciliation Act of 2003

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the Internal Revenue Service’s (IRS) actions
to implement the business provisions of the Jobs and Growth Tax Relief Reconciliation Act of
2003.1 This included evaluating the actions planned or taken to update and/or create necessary
computer programs, processing procedures, tax forms, instructions, and publications related to
these new provisions. To accomplish our objective, we:
I.       Reviewed the Act and identified significant tax law changes that affected the filing of
         business tax returns and determined the steps needed to be taken to effectively implement
         them. We specifically focused on Section 201, “Increased bonus depreciation,” Section
         202, “Increased expensing for small business,” and Section 501, “Time for payment of
         corporate estimated taxes.”
II.      Reviewed the Legislative Information Tracking System2 and determined if the plan
         identified major changes needed for computer programs, tax forms and instructions,
         publications, and Internal Revenue Manual procedures.
III.     Reviewed all Requests for Information Services3 that related to the key business
         provisions and determined if they contained adequate and accurate information to
         properly prepare required programs. Also, we determined whether programming changes
         were properly made and whether the changes were tested.
IV.      For the three business legislative tax provisions, determined whether changes to tax
         forms, instructions, and publications were timely and accurately prepared; written in
         plain, clear, and courteous language that would help facilitate taxpayer compliance; and
         in compliance with the legislative provisions of the new law.
V.       Evaluated the level and effectiveness of the IRS’ taxpayer education efforts for the
         business legislative tax provisions.




1
  Pub. L. No. 108-27, 117 Stat. 752.
2
  An intranet-based system that reflects real-time status updates for provisions and actions and provides management
information capabilities.
3
  IRS’ formal method of requesting a computer programming change from the Information Technology Services
function.



                                                                                                           Page 5
  Preparations Were Successful for Implementation of New Business Provisions in the
                Jobs and Growth Tax Relief Reconciliation Act of 2003

                                                                                 Appendix II


                           Major Contributors to This Report

Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Acting Director
Bill R. Russell, Audit Manager
Douglas C. Barneck, Senior Auditor
Greg Schmidt, Senior Auditor




                                                                                       Page 6
 Preparations Were Successful for Implementation of New Business Provisions in the
               Jobs and Growth Tax Relief Reconciliation Act of 2003

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communication and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Director, Corporate Data and Systems Management, Information Technology
Services OS:CIO:I:B:CP
Director, Customer Account Services, Small Business/Self-Employed Division SE:S:CAS
Director, Tax Administration Coordination SE:OTAC
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                 Page 7
     Preparations Were Successful for Implementation of New Business Provisions in the
                   Jobs and Growth Tax Relief Reconciliation Act of 2003

                                                                                                      Appendix IV


                             Details of Business Provisions in the
                     Jobs and Growth Tax Relief Reconciliation Act of 20031

Section 201 - Increased Bonus Depreciation
The Act provides an additional first-year depreciation deduction equal to 50 percent of the
adjusted basis of qualified property, effective for taxable years ending after May 5, 2003.
Qualified property is defined in the same manner as for purposes of the 30 percent additional
first-year depreciation deduction provided by the Job Creation and Worker Assistance Act of
2002,2 except that the applicable time period for acquisition (or self construction) of the property
is modified. In general, in order to qualify for the 50 percent additional depreciation deduction,
the property must be acquired after May 5, 2003, and before January 1, 2005.
Property does not qualify if it was acquired pursuant to a binding written contract in effect before
May 6, 2003. Property for which the 50 percent additional first-year depreciation deduction is
claimed is not eligible for the 30 percent additional first-year depreciation deduction.
Section 202 – Increased Expensing for Small Business
The Act increases the Code Section 179 (tangible depreciable personal property) expensing limit
to $100,000 for property placed in service in taxable years beginning in 2003, 2004, and 2005.
In addition, the phase-out of the limit (currently, a dollar-for-dollar reduction in the limit for the
amount of qualifying property placed in service during the year in excess of $200,000) is
modified so that the phase-out starting point is increased to $400,000 for property placed in
service in taxable years beginning in 2003, 2004, and 2005. Both the $100,000 limit and
$400,000 starting point are indexed annually for inflation in 2004 and 2005. The Act included
off-the-shelf computer software placed in service in a taxable year beginning in 2003, 2004,
and 2005 as qualifying property. The Act allows taxpayers to make or revoke expensing
elections on amended tax returns with respect to taxable years beginning in 2003, 2004, or
2005 without the consent of the Internal Revenue Service Commissioner.
Section 501 – Time for Payment of Corporate Estimated Taxes
The Act provided that 25 percent of the corporate estimated tax payment otherwise due on
September 15, 2003, was postponed to October 1, 2003. The due date for the remaining
75 percent of the September 2003 estimated payment was not changed. Only corporations on a
calendar year tax basis qualified for the deferral.




1
    Pub. L. No. 108-27, 117 Stat. 752.
2
    Pub. L. No. 107-147, 116 Stat 21 (codified in scattered sections of 26 U.S.C., 29 U.S.C., and 42 U.S.C.).
                                                                                                                Page 8
